           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
     NEW JERSEY DEPARTMENT
             OF LABOR,
      DIVISION OF DISABILITY
     DETERMINATION SERVICES

  August 2007       A-02-06-16043




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM
Date:      August 3, 2007                                                           Refer To:

To:        Beatrice M. Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   Administrative Costs Claimed by the New Jersey Department of Labor, Division of
           Disability Determination Services (A-02-06-16043)


           OBJECTIVES
           For our audit of Fiscal Years (FY) 2003 and 2004 administrative costs claimed by the
           New Jersey Department of Labor, Division of Disability Determination Services
           (NJDDS), our objectives were to:
           •     evaluate NJDDS’ internal controls over the accounting and reporting of
                 administrative costs;
           •     determine whether costs claimed by NJDDS were allowable and funds were properly
                 drawn; and
           •     assess limited areas of the general security controls environment.

           BACKGROUND

           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by Disability
           Determination Services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations. 1 Each DDS is responsible for determining claimants’ disabilities
           and ensuring adequate evidence is available to support its determinations. To make
           proper disability determinations, each DDS is authorized to purchase consultative
           medical examinations and medical evidence of record from the claimants’ physicians or
           other treating sources. SSA pays the DDS for 100 percent of allowable expenditures
           using a State Agency Report of Obligations for SSA Disability Programs (Form SSA-
           4513). For additional background information, see Appendix B.




           1
               42 U.S.C §421; 20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Beatrice M. Disman


RESULTS OF REVIEW
Our tests of the costs NJDDS claimed on Forms SSA-4513 provided reasonable
assurances the DDS had accurately reported administrative costs, except for $6,353 in
costs that required adjustments and $38,945 in costs that were not fully supported.
Additionally, we concluded that controls over NJDDS’ computer inventory and physical
security could be improved. Lastly, we found NJDDS improperly transferred
approximately $5.8 million by using 1 FY’s funds to pay another FY’s expenditures.

RECONCILIATION OF NJDDS’ COSTS

We reconciled NJDDS’ Personnel Service, Medical, Indirect, and All Other
Nonpersonnel Costs to the final Form SSA-4513 for FYs 2003 and 2004. The total
costs claimed for the 2 FYs totaled $86,061,767. Our review found $6,353 of Other
Nonpersonnel Costs needed to be adjusted.

All Other Nonpersonnel Costs

We found $6,353 of Other Nonpersonnel Costs required adjustment.

•   Three individuals who were not NJDDS employees received a total of $3,342 for
    tuition refunds ($795 and $752 for FY 2003 and $1,076 and $719 for FY 2004).

•   Two mailgram expenses totaling $3,011 were recorded in FY 2004 but were incurred
    in FY 2005. The two transactions should be recorded as FY 2005 expenses.

During our close-out meeting, the New Jersey Department of Labor (NJDoL) reported it
had taken actions in response to our findings concerning tuition refunds incorrectly
charged to NJDDS but paid to non-DDS employees and mailgram expenses incorrectly
charged to FY 2004.

Medical Consultants Costs

We found NJDDS was missing timesheets for 16 of 50 part-time Medical Consultants.
We contacted the New Jersey Department of Labor (NJDoL) Personnel Office staff
about the missing timesheets, and they informed us they were unable to locate the
supporting documentation. They also informed us the 16 Medical Consultants worked
at the same location and should have signed the same timesheet. Therefore, the
16 Medical Consultants represented 1 timesheet that should have been retained for at
least 6 years but was not. 2 Without the timesheet to support the $38,945 in payroll
costs for the 16 Medical Consultants for the period April 3 through April 16, 2004, we
were not able to fully ensure the reasonableness of these charges.

2
 SSA Mainframe Time and Attendance System Users Manual, Chapter 2, Record Retention,
page 7, August 1, 2004, states that sign-in sheets should be retained until after a Government
Accountability Office audit or when 6 years old, whichever occurs sooner. NJDoL’s March 2001 Records
Management Policy and Procedures indicates its record retention policy is to keep records for 7 years.
Page 3 – Beatrice M. Disman


INVENTORY CONTROLS

We reconciled SSA records to NJDDS’ inventory of computer equipment and found
three desktop computers and eight computer monitors did not have the required SSA
tags. According to SSA instructions, “The State is responsible for maintenance and
inventory of all equipment acquired whether purchased through SSA or the State.”3

PHYSICAL SECURITY CONTROLS

We reviewed physical security controls at the three NJDDS regional office locations.
We found controls over the identification of computer and utility rooms could be
improved at all three locations. SSA guidance states sensitive rooms should not have
signs visible to the public. 4 We found that sensitive rooms were identified with signs at
all three locations. Also, the three locations did not test their disaster recovery plans to
ensure continuity of operations, as required. 5 Finally, the three sites did not have
completed security action plans, and the plans were not tested as required. 6

We also identified issues specific to individual regional offices.

•     At one location, we observed the entrances to the computer room were not locked at
      all times and were at-risk of unauthorized access to sensitive SSA information and
      systems. Also, the room did not have an uninterruptible power source and therefore
      was at-risk for loss of service if the power supply failed. Further, the room did not
      have its own sprinkler system zone and was vulnerable to water damage if there
      was a fire in another part of the building.

•     At another regional office, we were informed by an NJDDS official that medical
      records and folders were not secured overnight in locked cabinets or in locked
      rooms. We were also informed that the office was cleaned after hours. As a result,
      cleaning personnel had unrestricted access to documents that contained confidential
      medical information. According to POMS, SSA requires that all claimant records
      and files be maintained in a locked drawer, cabinet or room when there is no
      authorized individual on location. 7

3
    See Program Operations Manual System (POMS), DI 39530.020, DDS Responsibilities for Equipment.
4
    PricewaterhouseCoopers FY 2003 Management Letter, DDS Issues.
5
    POMS, DI 39566.120, DDS Security Plan, Sections C.6, 7.b.
6
  The DDS Security Plan consists of eight parts that are consistent with Federal regulations that cover
security issues and include the following sections: DDS description/profile; DDS systems interconnection
access security plan; a systems security awareness and training plan; an annual systems
review/recertification plan; a violations reports and resolution plan; a continuity of operations plan; a
disaster recovery plan; and a risk assessment/exceptions report (POMS, DI 39566.120, DDS Security
Plan, Section C.).

7
    POMS, DI 39566.110, Safeguarding and Disposition of Data and Records, Section A.1.
Page 4 – Beatrice M. Disman


CASH MANAGEMENT

Personnel from NJDDS’ parent agency, NJDoL, stated they drew funds from 1 FY’s
Automated Standard Application for Payments (ASAP)8 account to pay for another
FY’s expenditures. The transfers, totaling $5,797,572, consisted of cash draws
between FY 2002 through 2005 ASAP accounts. See Appendix D for the specific
transfers.

The improper transfer of funds between ASAP accounts and the use of 1 FY’s funds to
pay another FY’s expenditures violates Federal law, which states,

          The balance of an appropriation or fund limited for obligation to a
          definite period is available only for payment of expenses properly
          incurred during the period of availability or to complete contracts
          properly made within that period of availability and obligated consistent
          with section 1501 of this title. 9

The ASAP system allows recipients of Federal funds to transfer cash between
accounts. The feature had not been disabled in Region II at the time of our audit.
SSA’s Office of Finance staff informed us that each regional office decides whether to
disable the ASAP system for each DDS. This ASAP feature allows the Regional Office
Project Officer to monitor the draw down of funds between FYs.

PAYMENT OF MEDICAL COSTS

NJDDS reimbursed all medical costs by mailing individual checks to medical providers.
For FYs 2003 and 2004, NJDDS made at least 300,000 medical payments by check.
We considered the mailing of individual checks to medical providers not the most cost
beneficial method of payment. We deemed payments made through electronic funds
transfer rather than by check to be more cost beneficial. An alternative payment
method is to use batch processing to save processing costs.




8
 The ASAP allows grantee organizations receiving Federal funds to draw from accounts pre-authorized
by Federal agencies.
9
    31 U.S.C. § 1502(a).
Page 5 – Beatrice M. Disman


CONCLUSION AND RECOMMENDATIONS
To address the conditions noted in this report, we recommend SSA staff work with the
NJDDS to:

1. Verify the adjustment of $3,342 of disallowed costs representing tuition refunds for
   employees who did not work for the NJDDS.

2. Verify the adjustment of $3,011 of Nonpersonnel Service Costs representing
   mailgram expenses incurred in FY 2005 but charged to FY 2004.

3. Ensure the retention policies for time and attendance records are followed.

4. Review the reasonableness of the Medical Consultant charges totaling
   $38,945 claimed on FY 2004 Form SSA-4513 representing payroll costs for 16 part-
   time Medical Consultants where supporting documentation was missing.

5. Properly account for all computer equipment.

6. Strengthen physical security for those areas noted in the report.

7. Consider coordinating with the New Jersey Department of the Treasury to use
   alternative payment methods to medical vendors to save processing costs.

We also recommend:

8. Responsible SSA Headquarters’ components, the Regional Office’s Center for
   Disability and NJDDS personnel work together to determine the appropriateness of
   the movement of ASAP funds between FYs.

SSA AND STATE AGENCY COMMENTS

SSA’s New York Regional Commissioner and NJDoL agreed with all our
recommendations. Please see Appendices E and F for the full text of SSA’s and
NJDoL’s comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513-State
             Agency Reports of Obligations for SSA Disability Programs

APPENDIX D – Transfer of Funds Between Fiscal Years

APPENDIX E – Agency Comments

APPENDIX F – State Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
ASAP            Automated Standard Application for Payments
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
NJDDS           New Jersey Department of Labor, Division of Disability
                Determination Services
NJDoL           New Jersey Department of Labor and Workforce Development
OIG             Office of the Inspector General
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SSA             Social Security Administration
U.S.C.          United States Code
                                                                       Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act, provides benefits to wage earners and their families in the event the wage earner
becomes disabled. The Supplemental Security Income (SSI) program, established
under Title XVI of the Act, provides benefits to financially needy individuals who are
aged, blind, and/or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the Disability Insurance and Supplemental
Security Income programs. Disability determinations under both programs are
performed by disability determination services (DDS) in each State, Puerto Rico and the
District of Columbia in accordance with Federal regulations. 1 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws funds through the United States Department
of the Treasury’s Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by the United States Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 3 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each DDS
submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) to account for program disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453, 104 Stat. 1058 (1990).


                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs New Jersey
Department of Labor, Division of Disability Determination Services (NJDDS), reported
on its Forms SSA-4513 for FYs 2003 and 2004. For the periods reviewed, we obtained
evidence to evaluate recorded financial transactions and determine whether they were
allowable under Office of Management and Budget Circular A-87, and as appropriate,
as defined by SSA’s Program Operations Manual System (POMS).

We also:

•   Reviewed applicable Federal laws, regulations and pertinent parts of POMS DI
    39500, DDS Fiscal and Administrative Management, and other instructions
    pertaining to administrative costs incurred by NJDDS and draw down of SSA funds.
•   Interviewed staff at NJDDS and the SSA Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by NJDDS on Forms SSA-4513 for FYs 2003 and 2004.
•   Examined the administrative expenditures (personnel, medical service, and all other
    non-personnel costs) incurred and claimed by NJDDS for FYs 2003 and 2004 on
    Forms SSA-4513.
•   Examined the indirect costs claimed by NJDDS for FYs 2003 and 2004 and the
    corresponding Indirect Cost Rate Agreements.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Reviewed the State of New Jersey Single Audit report issued in 2003.
•   Conducted limited general control testing—which encompassed reviewing the
    physical access security within the DDS.
•   Reviewed the transfer of funds between FYs 2002 to 2005 Automated Standard
    Application for Payments accounts.
•   Researched alternative methods of payment for medical costs.
The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.
We performed our audit at the NJDDS in Newark, New Brunswick and Trenton,
New Jersey and the Office of Audit in New York, New York, from September 2005
through January 2007. We conducted our audit in accordance with generally accepted
government auditing standards.



                                             B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other
Non-personnel costs. We obtained computerized data from NJDDS for FYs 2003 and
2004 for use in statistical sampling. Also, we reviewed general security controls the
DDS had in place.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2004. We tested regular and overtime payroll and hours for each employee
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure NJDDS correctly paid employees
and adequately documented these payments.

We also sampled 50 Medical Consultant costs from 1 randomly selected pay period in
FY 2004. We determined whether sampled costs were reimbursed properly and
ensured the selected Medical Consultants were licensed.

Medical Costs

We sampled 100 medical evidence of records and consultative examination records
(50 items from FYs 2003 and 2004) using a proportional random sample. We
determined whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed NJDDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, fixed or
final rate.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into nine categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Purchases and Rental, (5) Communications, (6) Applicant Travel,
(7) DDS Travel, (8) Supplies, and (9) Miscellaneous. We selected a stratified random
sample of 50 items from each FY based on the percentage of costs in each category




                                         B-3
(excluding the rent portion of Occupancy) to total costs. For those cost categories
where we found costs that required adjustment, we expanded our review to include
more transactions. We also performed a 100 percent review of the rent portion of
Occupancy expenditures.

General Security Controls

We conducted limited general security control testing. Specifically we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls NJDDS had in place were
satisfactory.




                                          B-4
                                                          Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs

            New Jersey Disability Determination Services

               FISCAL YEARS (FY) 2003 and 2004 COMBINED
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel             52,621,731            0              52,621,731
Medical               17,271,017            0              17,271,017
Indirect               7,064,342            0               7,064,342
All Other              9,104,677            0               9,104,677
TOTAL                 86,061,767            0              86,061,767

                               FY 2003
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel             25,642,879            0              25,642,879
Medical                8,404,409            0               8,404,409
Indirect               3,877,092            0               3,877,092
All Other              4,550,894            0               4,550,894
TOTAL                 42,475,274            0              42,475,274

                               FY 2004
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel             26,978,852            0              26,978,852
Medical                8,866,608            0               8,866,608
Indirect               3,187,250            0               3,187,250
All Other              4,553,783            0               4,553,783
TOTAL                 43,586,493            0              43,586,493
                                                                        Appendix D

Transfer of Funds Between Fiscal Years
        FY Funds     FY Funds
 No.      were         were          New Jersey Department of Labor             Amount
        Authorized   Expended             Explanation for Transfer
  1.       2002        2003     Transfer to reconcile administrative costs.   $2,992,727.59
  2.       2002        2003     Transfer made for medical cost adjustment.      $216,319.89
  3.       2003        2002     Transfer made for payroll purposes.           $1,331,789.00
  4.       2003        2002     Transfer made for payroll purposes.             $532,715.60
  5.       2003        2004     Transfer made for medical cost adjustment.      $294,239.92
  6.       2004        2003     Transfer made to reconcile FY 2003 amounts.      $26,916.46
  7.       2004        2005     Transfer made for medical cost adjustment.      $134,288.00
  8.       2005        2004     No explanation.                                 $268,576.00
Total                                                                         $5,797,572.46
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM

Date:      July 9, 2007                                                           Refer To:   S2D2G5

To:        Inspector General

From:      Regional Commissioner
           New York

Subject:   Administrative Costs Claimed by the New Jersey Department of Labor, Division of Disability
           Determination Services (A-02-06-16043) -- REPLY


           I appreciate the opportunity to review the attached draft report. I am pleased that the auditors
           found that the New Jersey (NJ) Division of Disability Determination Services (DDS) reported
           administrative costs of $86,061,767 with virtually 100% accuracy over the two year period that
           this review covered.

           I concur with the recommendations outlined in the draft report. They will assist us in further
           improving the DDS’ adherence to SSA policies concerning equipment inventory requirements,
           physical security controls, and retention of time and attendance records and will also help reduce
           case processing costs.

           Should your staff have any questions regarding this reply, they may contact Gene Purk in the
           Center for Disability, at 212 264-7283.


                                                                       /s/



                                                               Beatrice M. Disman
                        Appendix F

State Agency Comments
F-1
             N.J. Department of Labor and Workforce Development
                                  Response to
                         Social Security Administration
                           Office of Inspector General
             Review of Administrative Costs Claimed by New Jersey
                  Division of Disability Determination Services
                               FFY 2003 and 2004

Conclusion and Recommendations No. 1

Verify the adjustment of $3,342 of disallowed costs representing tuition refunds for
employees who did not work for the NJDDS.

LWD Response

DDS has been reimbursed $3,342 for tuition refunds of employees that do not work for
DDS. This correction was made as follows:

   1. Document EM 45450009511 for $718.56 that reimbursed DDS from Employment
      Security on 5/15/06.
   2. Document EM 45450009510 for $1,547.15 that reimbursed DDS from
      Employment Security on 5/15/06.
   3. Document AV 45355000441 for $1,076.50 that reimbursed DDS from Vocational
      Rehabilitation on 5/19/06.

Documentation has been provided to the Office of Inspector General (OIG).


Conclusion and Recommendations No. 2

Verify the adjustment of $3,011 of Nonpersonnel Service Costs representing mailgram
expenses incurred in FY 2005 but charged to FY 2004.

LWD Response

With regard to the $3,011 for NPS mailgram expense that should be a FY 2005
expense. This correction was made as follows:

   1. Document EM 45150000465 for $3,011.22 that reimbursed FY 2004 from
      FY 2005 on 5/16/06.

Documentation has been provided to the OIG.




                                         F-2
Conclusion and Recommendations No. 3

Ensure the retention policies for time and attendance records are followed.

LWD Response

The New Jersey Department of Labor and Workforce Development has instituted the e-
CATS payroll system (Electronic Cost Accounting Timesheet System). Effective April 1,
2006, all time and attendance records are now kept electronically with appropriate back-
up and retention systems in place.


Conclusion and Recommendations No. 4

Review the reasonableness of the Medical Consultant charges totaling $38,945 claimed
on FY 2003 Form SSA-4513 representing payroll costs for 16 part-time Medical
Consultants where supporting documentation was missing.

LWD Response

DDS has reviewed these charges and believe them to be reasonable. The 16 part-time
Medical Consultants at $38,945 represent one payroll timesheet that we are unable to
find. This problem has been corrected with the e-CATS which is discussed above.


Conclusion and Recommendation No. 5

Properly account for all computer equipment.

LWD Response

The three (3) desktops and eight (8) monitors were all tagged with SSA control
numbers. The workstation replacements which occurred in March and April of 2007 all
have SSA control numbers. DDS currently maintains a database for all computer
equipment and updates this database on a regular basis.


Conclusion and Recommendation No. 6

Strengthen physical security for those areas noted in the report.




                                           F-3
LWD Response

   •   All computer rooms remain locked at all times, and all computer rooms have an
       uninterrupted power supply. All computer rooms are key-padded. In the event of
       a power outage, keys are available but are kept in a secure location.
   •   NJDDS has a fully electronic case management system, therefore a majority of
       the claims are electronic and the paper cases are secure in the file cabinets at
       the close of business.
   •   All signs identifying the computer rooms have been removed.


Conclusion and Recommendation No. 7

Consider coordinating with the New Jersey Department of the Treasury to use
alternative payment methods to medical vendors to save processing costs.

LWD Response

DDS is working with Versa, Division of Accounting, and the Department of Treasury to
institute a better payment method to medical providers. We are working on a system
which will batch the expenditures for MER and CE on a two week basis. Before the
checks are issued a letter will be sent out to the vendor detailing what payments are in
the check that the vendor will receive.




                                          F-4
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Audit Manager, (212) 264-0504

Staff Acknowledgments
In addition to those named above:

   Stephen L. Liebman, Senior Auditor

   Robert Blake, Senior Auditor

   Abraham Pierre, Auditor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-02-06-16043.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
